20-5368'

No.

\ r^; nn ^
r n n n iJ
<: Ur ■ \:j

: ! i'!
J:

I

.

:

M

. U.3.

l

fj

l-r

1 1 <=- M'

f*W ti«

SUPREME COURT OF THE UNITED STATES

— PETITIONER

(Your Name)

ON PETITION FOR A WRIT OF CERTIORARI TO
t)n<\eA

CechO^of^/Vppe.o^ -Pr fy-e.

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
\

l 1*6

j/VVA^V.

(Your Name)
A\ ^

(Address)

fop

s N„._

(City, State, Zip Code)
'-<\Ar)JF
(Phone Number)

h"-:\

s

IN THE

Q\/4

■

L :

vS'_ : •

\Aj? r^^Mrv

■' V

i. >, in

fT

I

' J

!

■

QUESTION(S) PRESENTED

SINCE PETITIONER HAS NOT HAD A REAL JUDGE IN ALL OF THE STATE AND
FEDERAL COURTS NOR CAN THEY DISPROVE LOGICALLY THAT A CHILD IS
INFALLIBLY RELATED TO ITS BIOLOGICAL MOTHER ,AS WELL AS
PETITIONER WAS DENIED A FULL AND FAIR OPPORTUNITY TO LITIGATE AS
WELL AS THE STATE AND FEDERAL JUDGE ACTING AS LAWYERS FOR THE
DEFENDANTS AND THE PARALLELS BETWEEN POLLARD v.UNITED STATES.
THE TUSKEGEE EXPERIMENT AND PETITIONER’S CASE HAS BEEN 100%
ESTABLISHED AND THE DEFENDANTS WERE FOUND GUILTY IN THE
TUSKEGEE EXPERIMENT CASE, CAN THE UNITED STATES SUPREME COURT
FIND THE DEFENDANTS ANYTHING BUT GUILTY?

*

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
G>>7

to t {p/V

-r—u »

W.
<a-\ fi

RELATED CASES

Oyibo v. Huntington Hospital, et al.. No. 19-cv-5328, U.S. District Court for the
Eastern District of New York. Judgment entered October 9. 2019.
Oyibo v. Huntington Hospital, et al., No. 19-3755, U.S. Court of Appeals for the
Second circuit. Judgment entered March 18.- 2020.

TABLE OF CONTENTS
OPINIONS BELOW

1
/

JURISDICTION

%r

.3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE....................

9

REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

A-l

APPENDIX C

C 6\Xl
!> NA

APPENDIX D

APPENDIX E

APPENDIX F

^-1

O.rdk&T'

APPENDIX B

ftgOo r

J\,(X$CL,

v»o>A

^ C.GC* ^ ©l 4

&

kl^

$-elf's an

V

Ce-y,^,y&T Jrs^fc'Lre*#'- thJ~6'rv*S)J~^V

£•

P T3-

%
t^oyV^r/KWivN. (^/v /yi~A(

jlT/)Hera>f T-

A
fV9pisf'/’°>v H
/vpv-kf^'Pb*

i

tAc^<*A ^~>r4aj^^j

[avA\r,^ H*sp,lJ w K/Wg^

H^piHl sW;.*,

A^^Nt>1y

Z^-ortr/l£Xfa<Xlsj 4-4^

M>T>^^(77f *r

AA,

GrOC70t-<»t<

Or^er-

TfA /<iA

_
1ia A-i# fctir

K-1
W^-1

TABLE OF AUTHORITIES
CASES
Allen v. McCurrv.(\980Y

.25

Altitude Express. Inc, v. Zarda.(2020)

18

Callum v. CVS Health Corp.(2015)

19, 20

Kinev. Burwell 135 S. Ct. 2492 (2015)
Pollard v. United Statesf 19741

20

5, 26, 27

Rumble v. Fairview Health 5erv..('2015)
Se. Penn. Trans. Auth. v. Gilead Set. Inc..(2 0151

20,21
20

STATUTES AND RULES
Title IX of the Education Amendments of 1972 (20 U.S.C. § 1681)
28 U.S. C. § 455
28 U. S. C. § 1254(1)
Section 504 of the Rehabilitation Act of 1973 (29 U.S.C. § 794)
Title VI of the Civil Rights Act of 1964 (42 U.S.C. § 2000d)

21
14, 16, 18, 19
2

.21
19,21

Title VII of the Civil Rights Act of 1964 (42 U.S.C. § 2000e-2(a)(l)>

18

Age Discrimination Act of 1975 (42 U.S.C. § 6101)

,21

Patient Protection Affordable Care Act (ACA) Section 1557(42 U.S.C. § 18116a)
CPLR§ 1101

,20, 21
11

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix ^
the petition and is

to

[ ] reported at
; or,
[ 1 has been designated for publication but is not yet reported; or,
[vj is unpublished.
*
The opinion of the United States district court appears at Appendix &
the petition and is
[ ] reported at

; or,

[ ]>as been designated for publication but is not yet reported; or,

M is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
$kTa timely petition for rehearing

was denied by the United States Court of
Appeals on the following date: ft-ZWy Ug djo'\s» and a copy of the
i
order denying rehearing appears at Appendix'^

[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

4. CONSTITUTIONAL PROVISIONS INVOLVED
UNITED STATES CONSTITUTION, AMENDMENT V:
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public danger; nor shall any person be
subject for the same offense to be put twice in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.
UNITED STATES CONSTITUTION, AMENDMENT XIV:
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.
STATEMENT OF THE CASE
A. TIMELINE OF THE DEFENDANT HOSPITAL’S MEDICAL MALPRACTICES
On February 22, 2013 Petitioner arrived in Huntington Hospital and reported that
Petitioner had gout in his toes and feet to the doctors. Defendants deliberately and irrationally
dismissed gout WITHOUT CONDUCTING ANY LABORATORY TEST FOR GOUT despite
recognizing Petitioner had all physical symptoms of gout, like painful joints and inflamed painful
big toe, red skin around the toes, inability to walk on feet, elevated ESR, WBC, etc. This is
3

clearly negligence as well as medical malpractice in which the defendants are directly,
completely responsible for and without any contribution to that negligence from the Petitioner.
The defendant’s negligence was also recognized by the defendants deliberate refusal to do the
synovial joint fluid test/joint aspiration which the defendants own official hospital website
specifically listed as the definitive test and standard of care for definite diagnosis of gout
(Appendix I at 1-1 to 1-5). This is also clearly negligence as well as medical malpractice in which
the defendants are directly, completely responsible for and without any contribution to that
negligence from the Petitioner.
Petitioner on April 10, 2014 was medical malpractice assaulted as well as medical
malpractice patient dumped out into the cold for over an hour to die by Huntington Hospital,
which are not only negligences (directly and completely caused by the defendant hospital and
their agents/agency without any contribution to that negligence from the Petitioner) but are the
worst medical malpractices which are captured on the videos requested by the Subpoena Duces
Tecum of the Petitioner. These videos infallibly proved these negligences and criminal medical
malpractices happened, however Judge McCormack/Attorney Roth fraudulently refused to force
the defendants to surrenders those videos/evidences and Judge McCormack/Attorney Roth
revealed themselves to be lawyers for the defendants while pretending to be judges in this case,
something Judge McCormack had later on recognized as being illegal and unprofessional
conduct as a judge (judicial misconduct) and therefore recused himself (Appendix J at J-l). The
Defendant Hospital medical malpractice assaulting Petitioner as well as medical malpractice
dumping Petitioner out into the cold for over an hour to die was completely caused by the
defendants reckless negligences and gross criminal medical malpractices without any
4

contribution to that negligence from the Petitioner.
Petitioner’s wounds on his feet were from Gout as recognized by North Shore Univ.
Hospital’s own surgical report and medical records (Appendix I at 1-6 to 1-17), exposing the
fraudulent concealment of Petitioner’s gout, of their sister hospital, Huntington Hospital claiming
Petitioner didn’t have gout as well as the fraudulent psychiatric diagnosis in a very vicious
attempt at discrediting the Petitioner and to protect their sister hospital from their medical
malpractices in 2013 and in 2014.
Petitioner’s medical malpractice case has been extremely and viciously trivialized by the
State as well as the Federal Court Judges when it is in the class of the worst and most vicious and
malicious medical malpractice cases completely similar to the Tuskegee Experiment, Pollard v
United States and the State, Appellate Court and Federal Judges are refusing to even see this as a
medical malpractice, proves all of these courts, State and Federal, are obviously ignoring
Petitioner and refusing to hear the Petitioner’s case at all.
Petitioner is a victim of a criminal as well as an extraordinarily vicious medical
malpractice where the defendant’s criminal medical malpractice actions led to Petitioner almost
being murdered several times, through the defendants fraudulently concealing the Petitioner’s
diagnosis of gout and fraudulently misrepresenting the Petitioner’s gout condition as a
“mysterious unknown disease” in order to deliberately and intentionally harm and kill Petitioner
along with sending Hospital Security to medical malpractice assault and medical malpractice
patient dump the Petitioner out into the cold for over an hour with open feet wounds to die and a
malicious attack by the defendants in their Hospital’s Operation Room (OR) where Petitioner
was ambushed, lied to, and physically constrained/held physically down by the hospital OR staff
5

who engaged in a very vicious medical malpractice battery/attempted murder by hospital staff
upon Petitioner, which the attempted murder action by the defendant hospital’s OR, the
Petitioner provided evidence and transcribed relevant parts of that vicious medical malpractice
battery/attempted murder by hospital staff upon Petitioner to the state and federal courts on a
compact disc (Appendix I transcribed at 1-43 to 1-58).

B. STATE AND FEDERAL CASES WHERE ALL JUDGES ACTED AS LAWYERS FOR
THE DEFENDANT
Petitioner’s first state medical malpractice case was initiated on August 21, 2015.
Petitioner also on October 13, 2016 had requested a Subpoena Duces Tecum, which requested
videos of the medical malpractice assault for all to clearly see (Appendix H at H-l)). On October
27, 2016 the defendants changed law firms to Vigorito, Barker, Patterson, Nichols and Porter
with Attorney Adam S. Covitt, which then he drafted a fraudulent motion to quash with the
argument saying that a child (medical malpractice assault) is infallibly unrelated to its biological
mother (medical malpractice super set) which is wrong (Appendix H at H-2 to H-3). On August
31, 2017 the Court severely erred in agreeing with them and when Attorney Roth passed this
fraud along and reacted in a hostile and threatening matter to the Petitioner, Petitioner then
submitted a motion for Judge McCormack’s recusal on September 11, 2017, where Petitioner
outlined that a judge who doesn’t know that a child (medical malpractice assault) IS infallibly
related to its biological mother (medical malpractice super set) is incapable (or unqualified) to
preside over this case. On the following date of November 14, 2017 James P McCormack and his
law secretary Gregg Roth granted the motion, proving they were acting as lawyers for the
6

defendants NOT as fair and impartial judges for the Petitioner’s case (Appendix J at J-l).
The court on November 14, 2017 then proceeded to have Judge Leonard D Steinman
preside over the case, but he in turn acted as a hatchetman agreeing to everything the defendants
wanted, include a summary judgment motion they submitted while absolutely no discovery from
them was provided in the case. Soon after on April 5, 2018 Petitioner had put in a motion to
recuse himself, which Judge Steinman has, without disclosure of his conflict of interest as well as
having a personal/financial interest in the proceeding, where his daughter, Hallie Steinman is
employed by the defendants, stubbornly presided over the Petitioner’s medical malpractice case
proceedings in the Nassau County Supreme Court with absolutely no intention to fairly hear
Petitioner case or allow any discovery/evidences of the medical malpractice (AGAIN A CLEAR
DENIAL OF DUE PROCESS OR FIFTH AND FOURTEENTH AMENDMENTS FOR
Petitioner). Even after a motion to recuse himself, where the Petitioner notified Judge Steinman’s
conflict of interest, Judge Steinman has extremely trivialized the Petitioner’s medical malpractice
case in order to protect defendants from being completely guilty of criminal medical malpractice
as well as conspiring with Attorney Covitt/VBPNP Law Firm in fraudulently killing Petitioner’s
infallible criminal medical malpractice case in order to make sure his daughter will continue to
be employed by the defendants which is both a personal and financial interest for Judge Steinman
and a very strong motivation for Judge Steinman to fraudulently destroy and kill Petitioner’s case
to protect his own interests.
In addition Judge Steinman after the recusal motion engaged in more judicial misconduct
and criminal behavior, by fraudulently concealing/covering up his original misconduct by
improperly stopping and issuing a fraudulent decision to the recusal motion 5 days after it was
7

submitted, refusing to let defendants respond at all to the evidence of Judge Steinman being a
lawyer for the defendants instead of a fair and impartial judge in the Petitioner’s case, ignoring
his clear conflict of interest which gave Judge Steinman a strong motivation to fraudulently
destroy and kill the Petitioner’s medical malpractice case by deliberately preventing the
Petitioner any discovery/evidences to prove Petitioner’s case and also removing evidences of his
gross judicial misconduct stated by members of his own court, Nassau County Supreme Court
and other Attorneys on a website therobingroom.com, where they publicly expressed not having
any confidence in Judge Steinman to be a fair and impartial judge, but instead a fraudulent and
corrupt judge as evidenced by the following comments made by the public (Appendix K at K-l
to K-3)
“Justice Steinman issued a number of decisions that the Nassau County Bar shared
with me after I personally witnessed that he is detached from realty, is self serving and
financially rewards his “so-called” friends. (Court Staff dated 1/22/2017 6:38:41 PM) ”
“Atrocious and illesal conduct, usins his government position to abuse people for
political sain and his own pocketbook. (12/16/2016 10:40:04 PM)”
“This Judse (Steinman) removed an attorney from the Courtroom, by force of a Court
Officer for 10 minutes on Aueust 12. 2016. without her property for OBJECTING on
the basis of relevance. Allowed others to view her cell phone, lesal documents and
property (Litisant 12/13/2016 3:27:25 PM)”
“This person (Judse Steinman) is hishlv unstable. Takes personally basic matters and
lashes out at lawyers before hint for no reasonJCourt Staff8/25/2016 8:46:03 PM)”
“Justice Leonard Steinman should be criminally investisated. (7/12/2016 9:15:07
PM)”

“This is what we set when we vote on party lines and we know nothins about the
person. This iudse’s (Judse Steinman) knowledge is minimal, with shallow decision.
and does not know minimal procedural requirements. Stay away if you can. (Litieant
6/29/2016 5:41:03 PM) ”

8

JUDGE STEINMAN HAD SEVERAL OF THE STATEMENTS/EVIDENCES
REMOVED FROM THEROBINGROOM WEBSITE, TO HIDE HIS BLATANT
CORRUPTION, CRIMINALITY AS WELL AS HIS CONSPIRING WITH ATTORNEY
COVITT/VBPNP WHILE HIMSELF IMPERSONATING/PRETENDING TO BE A FAIR AND
IMPARTIAL JUDGE WHILE IN REALITY BEING A LAWYER FOR THE DEFENDANTS
IN ORDER TO FRAUDULENTLY KILL PETITIONER’S MEDICAL MALPRACTICE CASE
SEE THE FOLLOWING APPENDIX K).
JUDGE STEINMAN ALSO HAS A DAUGHTER (HALLIE STEINMAN) WHO IS
EMPLOYED BY THE DEFENDANTS NORTHWELL HEALTH (NORTH SHORE LIJ)
SYSTEM OF HOSPITALS AFFILIATE CALLED MAIMONIDES MEDICAL CENTER IN
BROOKLYN (APPENDIX K AT K-4 TO K-10), WHICH CONSTITUTES NOT JUST A
CLEAR CONFLICT OF INTEREST FOR JUDGE STEINMAN, WHO SHOULD HAVE
AUTOMATICALLY EXCUSED/RECUSED HIMSELF FROM THE PETITIONER’S
MEDICAL MALPRACTICE CASE FROM THE BEGINNING IF HE IS A FAIR, IMPARTIAL
AND UNBIASED JUDGE AND NOT A FRAUDULENT HATCHET-MAN AND A LAWYER
FOR THE DEFENDANTS , BUT ALSO A VERY STRONG MOTIVATION FOR JUDGE
STEINMAN TO COLLABORATE/CONSPIRE WITH THE DEFENDANTS
(REPRESENTING NORTHWELL HEALTH/NORTH SHORE LIJ SYSTEM) TO
FRAUDULENTLY AND ILLEGALLY DESTROY PETITIONER’S MEDICAL
MALPRACTICE CASE, WHICH COMPELS HIM TO EXCUSE/RECUSE HIMSELF FROM
THIS CASE AND HIS FRAUDULENT DECISION BE REMOVED, OVERTURNED AND
VACATED URGENTLY.
9

JUDGE STEINMAN ALSO CLAIMED THAT DEFENDANTS MEDICAL EXPERT,
DR. MICHAEL BELMONT CONCLUDED THERE WAS “NO DEVIATIONS IN ACCEPTED
MEDICAL PRACTICE”, THAT MEANS THE DEFENDANTS MEDICAL EXPERT, DR
MICHAEL BELMONT, CONCLUDED THAT A MEDICAL DIAGNOSIS THAT IS
EQUIVALENT WITH DIAGNOSING OF GOD AS BEING “PSYCHIATRICALLY ILL” AND
THAT MEDICAL MALPRACTICE ASSAULTING OF PATIENTS, MEDICAL
MALPRACTICE DUMPING OF PATIENTS OUT INTO THE COLD TO DIE AS WELL AS
MEDICAL MALPRACTICE BATTERY IN THE DEFENDANTS HOSPITAL’S OR ARE
ACCEPTED MEDICAL PRACTICES AND ARE NOT DEVIATIONS FROM ACCEPTED
MEDICAL PRACTICES, IS OBVIOUSLY GROSSLY FRAUDULENT . SEE THE
FOLLOWING APPENDIX I COMPACT DISC TRANSCRIBED AT 1-43 TO 1-58 .
Due to the fraudulent dismissal of my case by Judge Steinman, Petitioner submitted
notices of appeal for leave to the Appellate court, on March 30 and August 10, 2018. Petitioner
has run into problems with the Appellate Division Second Department particularly Judges Alan
D. Scheinkman, Mark C. Dillon and Ruth C. Balkin who all have also acted as lawyers for the
defendants, while pretending to be fair and impartial judges in Petitioner’s medical malpractice
case appeal in order to deny due process for Petitioner in the appellate court and fraudulently
conceal/coverup/kill Petitioner’s 100% infallible medical malpractice case. Here in the
Petitioner’s medical malpractice case the Appellate Court Judges (particularly Judges
Scheinkman, Dillon and Balkin) have deliberately ignored the Petitioner’s infallible proof and
evidences that Petitioner is an indigent/poor person, who has NO MONEY, NO ASSETS, NO
SALARY OR INCOME WITH ZERO DOLLARS IN HIS ACCOUNT (Appendix E). Neither
10

the Defendants nor the Appellate Judges could disprove the infallibly sound evidences of the
Petitioner being an indigent/poor person and yet the Appellate Court Judges deliberately refused
to hear the Petitioner by deliberately ignoring those specific evidences and refused to grant poor
person relief to Petitioner.
Petitioner’s infallible amount of evidence of the merit of Petitioner’s case, such as the
Petitioner’s previous motions with the Subpoena Duces Tecum requesting evidences of the
medical malpractice assault of Petitioner by the defendant hospital and the compact disc
recording of the Medical malpractice battery of Petitioner by the defendant hospital and more
specific that a child (Medical Malpractice assault/patient dumping) if infallibly related to its
biological mother (Medical Malpractice Superset), has also been deliberately ignored by the
Appellate Court Judges i.e. the Appellate Court Judges refusing to hear the Petitioner.
In the latest action by the Appellate Court, Judge Scheinkman, Dillon, Balkin and
Chambers have proven they have no intention to let Petitioner be heard by their actions and
conduct and have fraudulently dismissed/killed Petitioner’s 2018-05514 and 2018-10991
appeals. “ Judges” Scheinkman, Dillon, Balkin and Chambers has denied poor person relief in
spite of Petitioner completely fulfilling all requirements for it as the law CPLR § 1101 states, as
well as very deliberately and blatantly refusing the Petitioner’s clear request for the relief of
consolidation of the two appeals together (2018-05514 and 2018-10991).
The Appellate judges also refused to consolidate the two appeals or list the 2018-10991 again in
Petitioner’s following motions for poor person relief and fraudulently allowed the 2018-05514
and 2018-10991 appeals to be dismissed/killed in spite of the consolidation request and for a 60
day extension for those 2018-05514 and 2018-10991 appeals.
11

By Judges Scheinkman, Dillon, Balkin and Chambers in the several motions for poor
person relief, deliberately ignoring the Petitioner’s request to consolidate the appeals and outright
ignoring and refusing to recognize the 2018-10991 appeal in its entirety, which contained
evidence of the medical malpractice battery of Petitioner committed by the defendants which was
provided to show the infallible merit of Petitioner’s case, there is only one clear message to this
action which is Judges Scheinkman, Dillon, Balkin and Chambers and the rest of the Appellate
Court Judges are clearly biased against Petitioner, and are conspiring together and are very
viciously, maliciously and fraudulently sabotaging Petitioner’s case and deliberately ignoring
evidence provided by the Petitioner in order to prevent Petitioner and his case from being heard
in the appellate court, since denying poor person relief will automatically prevent Petitioner
prosecuting this appeal and automatically grant defendants a victory, despite defendants being
completely guilty of criminal medical malpractice as well as proving a clear bias by Judges
Scheinkman, Dillon, Balkin and Chambers against pro se Petitioner in order to protect
defendants criminal medical malpractice, which is improper behavior for a judge (judicial
misconduct) and deliberate fraudulent concealment by the judicial system in order to coverup the
criminal medical malpractice of the defendant hospital and Judge McCormack, Attorney Roth
and Judge Steinman judicial misconduct and blatant corruption which proves Judges
Scheinkman, Dillon, Balkin and Chambers are acting as lawyers for the defendants NOT fair and
impartial judges in Petitioner’s appeal
The Appellate court judges like Judges Scheinkman, Dillon, Balkin and Chambers’ bias
against Petitioner who is pro se indigent Petitioner, are putting their partisan interests, including
financial interests, in their profession as lawyers/judges above justice for the public and the
12

greater good, and are proving they are also biased against Petitioner which is improper and
judicial misconduct and blatant corruption.
Due to the deliberate refusal from the state court and judges to deliver justice, Petitioner
filed a federal lawsuit complaint in September 2019, along with In Forma Pauperis relief. Judge
William Kuntz chose to preside over this case and dismissed my case on October 2019. However
it has been just discovered by the Petitioner, the District Judge that chose to preside over
Petitioner’s Medical Malpractice Case, Judge William Kuntz had a clear conflict of interest,
where Judge Kuntz’s wife, Dr. Alice Beal is a MD an Assistant Professor, Medicine associated at
SUNY-Downstate College of Medicine WHICH ON THE SUNY DOWNSTATE OFFICIAL
WEBSITE https://sls.downstate.edu/registrar/catalog/clinical_affiliates.html HAVE STATED
THAT SUNY DOWNSTATE ARE AFFILIATES OF NORTHWELL HEALTH (IN
PARTICULAR NORTH SHORE UNIV. HOSPITAL, THE DEFENDANTS IN PETITIONER’S
MEDICAL MALPRACTICE LAWSUIT (Appendix F)).
Judge Kuntz if he was a fair and impartial judge, should have recused himself due to this
obvious and clear impropriety and personal bias against Petitioner’s but deliberately didn’t.
Instead Judge Kuntz who knew his wife being affiliated with Northwell Health (North Shore
Univ Hospital which Petitioner lawsuit was against) deliberately and severely prejudiced
Petitioner’s case and Kuntz willfully and wantonly chose to preside over Petitioner’s case to be a
HATCHETMAN using his office/position to benefit and further the interest of Northwell Health
by fraudulently dismissing/killing Petitioner’s case which infallibly proved them to be guilty of
medical malpractice and also to further his own personal and financial interests like making sure
his wife’s job and career would be protected, since if Judge Kuntz was a fair and impartial Judge
13

and found the defendant hospitals guilty of Medical Malpractice it’s fair to assume that
Northwell Health would have retaliated against his wife and/or lost her job. This evidence of
Judge Kuntz’s bias against Petitioner as well as conflict of interest, which Judge Kuntz never
disclosed to the Petitioner, has revealed himself to be a lawyer for the defendants pretending to
be a fair and impartial judge and makes his so called judgment/decision fraudulent and illegal.
Also this is a clear violation of 28 U.S. C. § 455 which states:
(a)Any justice, judge, or magistrate judge of the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably be questioned.
(b)He shall also disqualify himself in the following circumstances:
(l)Where he has a personal bias or prejudice concerning a party, or personal knowledge of
disputed evidentiary facts concerning the proceeding;
(4)He knows that he, individually or as a fiduciary, or his spouse or minor child residing in his
household, has a financial interest in the subject matter in controversy or in a party to the
proceeding, or any other interest that could be substant ially affected by the outcome of the
proceeding;
(5)He or his spouse, or a person within the third degree of relationship to either of them, or the
spouse of such a person:
(i)Is a party to the proceeding, or an officer, director, or trustee of a party;
(ii)Is acting as a lawyer in the proceeding;
(iii)ls known by the judge to have an interest that could be substantially affected by the outcome
of the proceeding;
(c)A judge should inform himself about his personal and fiduciary financial interests, and make a
14

reasonable effort to inform himself about the personal financial interests of his spouse and minor
children residing in his household.
This fraudulent judgment by Judge Kuntz must be overturned and vacated immediately
Petitioner appealed this decision to the Court of Appeals 2nd circuit and applied for IFP
relief before chiefjudge, Judge Robert Katzmann on November 2019. However Judge Katzmann
denied the Petitioner’s appeal on March 18, 2020, and later a motion to reconsider by the
Petitioner in April 2020 on May 28, 2020 (Appendix C). Petitioner has also new evidence that
shows that Judge Kuntz and Judge Katzmann are not just acquittances but are partners/friends
inside and outside the courtroom. On the website
https://www.centralsynagogue.org/worship/sermons/detail/jethro_shabbat_meeting_the_legal_ne
eds_of_immigrants (Appendix G at G-13), Judge Katzmann revealed that he has worked together
with Judge Kuntz:
“...It has for me (Katzmann) been an inspiring experience to work with such devoted
lawyers, anxious to help those in need. We have been guided by an outstanding steering
committee: Jojo Annobil of Legal Aid, Immigration Judge Noel Brennan, Judge Chin,
Peter Cobb, Peter Eikenberry, Philip Graham, Robert Juceam, William Kuntz (then in
private practice and now on the district court)...”
In the 2018 Hawaii Access to Justice Conference: Addressing the Desperate Legal Needs
of the Immigrant Poor (Appendix G at G-26), Judge Katzmann specifically mentions Judge
Kuntz by name as a colleague:
“...The Study Group is made up of some 70 lawyers from a range of firms; nonprofits; bar
organizations; immigrant legal service providers; immigrant organizations; law schools;
federal, state, and local governments; and judicial colleagues including Judge Chin and
Judge Kuntz...”
Judge Katzmann has for instance been very vocal in the courts and on interviews and the

15

internet where he is a major advocate for the rights of immigrants and providing for them pro
bono services, a form of poor person relief like IFP. for example on the website:
https://vilcek.org/news/robert-a-katzmann-making-justice-accessible-to-all/(Appendix G at G-8),
where Judge Katzmann is quoted saying the following:
“Access to justice should not depend on the income level of those in the system.”
This quote by Judge Katzmann is incredibly ironic due to Katzmann’s own deliberate and
malicious refusal to grant Petitioner in this court access to justice. Petitioner in his previous
request for IFP proved he doesn’t have any income or money to prosecute the appeal. Judge
Kuntz in his decision also recognized that Petitioner was a poor person by waiving all fees and
costs for that decision (“Petitioner’s request to proceed without the prepayment of fees is
granted...” Appendix B at B-l). Despite these particular evidences and the Defendants not
disproving them or posing any motion in opposition or any response against it, Judge Katzmann
deliberately denied access to justice and this court for the Petitioner by denying IFP which is a
poor person relief (similar to Pro Bono) to allow the Petitioner access to this court. Despite Judge
Katzmann’s appearance of eloquence, he has clearly contradicted his purported mission towards
“making justice accessible for all”. In addition Judge Katzmann has mentioned on this website
that his parents were both immigrants (father was from Germany and his mother from Russia) so
his advocating access to justice for immigrants is a clear personal bias or partiality in favor of
immigrants over Natural Bom Americans like the Petitioner. This is a clear violation of 28 U.S.
C. § 455 which states:
(a)Any justice, judge, or magistrate judge of the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably be questioned.
16

(b)He shall also disqualify himself in the following circumstances:
(l)Where he has a personal bias or prejudice concerning a party, or personal knowledge of
disputed evidentiary facts concerning the proceeding;
The irrational and viciously stubborn refusal of Judge Katzmann to grant IFP/poor person
relief to Petitioner when Petitioner has infallibly proven that he qualifies for it and even Judge
Kuntz in the District Court granted it (“Petitioner’s request to proceed without the prepayment of
fees is granted...” Appendix B at B-l), can only make sense in light of the new evidence that
Petitioner had recently discovery about Judge Kuntz’s conflict of interest and Judge Katzmann
protecting/refusing to punish or go against corrupt judges and instead attacks the public members
who witnessed the corruption like the public witnessed and recognized Judge Katzmann did on
therobingroom (Appendix G at G-2):
“Litigant
Comment #: 21789
Rating: 1.0
Comments:
Judge Katzman was a on three member panel in 2008. It was a case that the CFTC denied me
registration. I was a hedge fund manager and my fund was the victim of a huge multi-billion
dollar copper scandal involving Sumitomo Bank, JP Morgan and others. I became a lead
Petitioner in the class action lawsuit and we won a settlement. However, I had asked my
regulators, the NFA and CFTC how to account for the copper losses and settlement. Katzman
(and Renna Raggi) agreed with the CFTC and basically I was denied my registration for life with
no hopes to ever get it back. I was so angry, I wrote a letter to Katzman and Raggi and they
contacted the US Marshals and had them "intimidate, harass and threaten" me although they
admitted my letter broke no laws.
In 2011,1 had an issue with a District Court Judge, Denis Hurley (EDNY). He is just basically
corrupt. I wrote a complaint and I said in the complaint that Katzman (now as Chief Judge) had
to recuse himself because of the events of 2008. Katzman deliberately ruled anyway against me.
When I followed up again with an angry letter to him, and copied the Council and the Senate
Judiciary Committee, Katzman did the same exact thing and sent the US Marshals again!!!!
So, this guy Katzman is corrupt and should be removed from his position. He just thumbs his
nose at Constitutional Law and cites a predisposed opinion. I mean its obvious the system is
broken, but this guy should never have ever been part of it. We can all write negative things,, but
17

at the end of the day, unless something is done about a guy like Katzman, he is going to continue
to be arrogant and violate the law 6/4/2014 1:45:50 PM”
Judge Katzmann fraudulently denied the Petitioner’s previous motions in order to protect
his friend and fellow Judge, Judge Kuntz of his concealment of his obvious conflict of interest
and him acting as a lawyer for the defendants pretending to be a fair and impartial judge in the
district court (i.e. Judge Katzmann showing a clear bias and partiality in favor of his
ffiend/fellow judge which is appearance of impropriety and blatant corruption), just like Judge
Katzmann denied this litigant on therobingroom justice in order to protect another fellow corrupt
judge, Judge Denis Hurley. Again this is a clear violation of 28 U.S. C. § 455 which states:
(a)Any justice, judge, or magistrate judge of the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably be questioned.
(b)He shall also disqualify himself in the following circumstances:
(l)Where he has a personal bias or prejudice concerning a party, or personal knowledge of
disputed evidentiary facts concerning the proceedings
Also in the case Altitude Express. Inc, v. Zarda. Donald Zarda filed a federal lawsuit
alleging he was discriminated against by Altitude Express due to sexual orientation/sex. The 2nd
Circuit under Judge Katzmann ruled in his favor and Judge Katzmann in his ruling, waxed
eloquent and poetic in his determination to make sure Zarda’s case was recognized as a
discrimination case and acknowledged the Civil Rights Act applied for Zarda, particularly Title
VII, 42 U.S.C. § 2000e-2(a)(l) which prohibits employment discrimination based on race, color,
religion, sex and national origin. Interestingly enough, Petitioner in his Motion for
Reconsideration (Appendix D), the Petitioner had infallibly proved that his case is a

18

discrimination case and also proved his discrimination case is a racial one which is also
prohibited by the Civil Rights Act, particularly Title VI, 42 U.S.C. § 2000d which prohibits
discrimination on the basis of race, color, and national origin in programs and activities receiving
federal financial assistance (including Hospitals). Title VI and Title VII both have the common
base of explicitly stating discrimination of race to be illegal. Petitioner also referenced the Patient
Protection Affordable Care Act (ACA) and Section 1557 which incorporated Title VI of the Civil
Rights Act and also states that Section 1557 creates a private right and remedy for the violation
of four federal statues prohibiting discrimination based on race, sex, age, and disability. So in
effect what Petitioner has infallibly proven here is that while Judge Katzmann will recognize the
law for Zarda who was discriminated due to sex which is prohibited by the Civil Rights Act, the
same Judge Katzmann deliberately REFUSED to recognize the law, particularly the same Civil
Rights Act for the Petitioner who was discriminated against due to race, despite that
discrimination is also prohibited by the Civil Rights Act and that law clearly mean to protect
members like the Petitioner on the basis of race. This is clearly prejudicial treatment, denial of
due process and a clear case of bias by Judge Katzmann. This is a clear violation of 28 U.S. C. §
455 which states:
(a)Any justice, judge, or magistrate judge of the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably be questioned.
(b)He shall also disqualify himself in the following circumstances:
(l)Where he has a personal bias or prejudice concerning a party, or personal knowledge of
disputed evidentiary facts concerning the proceeding;
The case Callum v. CVS Health Corp. has recognized the Patient Protection and
19

Affordable Care Act (ACA) and Section 1557 (42 U.S.C. § 18116(a))creates a private right and
remedy for the violation of four federal statues prohibiting discrimination based on race, sex, age,
and disability. Other courts have concluded that § 1557 is indeed enforceable via an implied
private right of action. See Se. Penn. Trans. Auth. v. Gilead Sci.. Inc.. 102 F. Supp. 3d 688,
697-99 (E.D. Penn. 2015); Rumble v. Fairview Health Serv.. No. 14-2037, 2015 WL 1197415, at
*7 n.3 (D. Minn. Mar. 16, 2015) (Nelson, J.); Callum v. CVS Health Corn.. 137 F. Supp. 3d 817,
845-48 (D.S.C. 2015). “Section 1557 (42 U.S.C. § 18116(a)) creates a private cause of action” to
address claims of discrimination on the basis of race, color, national, origin, sex, age, or
disability. Callum v. CVS Health Corp.. 137 F. Supp. 3d 817, 848 (D.S.C. 2015); see also S. E.
Pennsylvania Transp. Auth. v. Gilead Scis.. Inc.. 102 F. Supp. 3d 688, 698 (E.D. Pa. 2015)
(“SEPTA”); Rumble v. Fairview Health Servs.. No. 14-CV-2037, 2015 WL 1197415, at *7 n.3
(D. Minn. Mar. 16, 2015); East, 2014 WL 8332136, at *2. The ACA’s statutory text, context, and
structure, along with the Final Rule, together make plain that Section 1557 claims should be
subject to a single legal standard and burden of proof regardless of the basis of the alleged
discrimination.
Rather, “looking at Section 1557 and the Affordable Care Act (ACA) as a whole, it
appears that Congress intended to create a new, health specific, anti-discrimination cause of
action that is subject to a singular standard, regardless of a Petitioner’s protected class status.”
Rumble, 2015 WL 1197415, at *10 (emphasis added). See Kim v. BurwelL 135 S. Ct. at 2492 (in
interpreting the ACA and Section 1557, “we must do our best, bearing in mind the fundamental
canon of statutory construction that the words of a statute must be read in their context and with a
view to their place in the overall statutory scheme.”) (internal quotation omitted). That intent is
20

evident from the structure and language of the statute. Section 1557 incorporates “title VI of the
Civil Rights Act of 1964 (42 U.S.C. 2000d et seq.), title IX of the Education Amendments of
1972 (20 U.S.C. 1681 et seq.), the Age Discrimination Act of 1975 (42 U.S.C. 6101 et seq.), or
section 504 of the Rehabilitation Act of 1973 (29 U.S.C. 794)” to delineate “the ground[s]
prohibited under” it. 42 U:S.C. § 18116(a). As another district court recently concluded,
“Congress likely referenced the four civil rights statutes mainly in order to identify the
‘groundfs]’ on which discrimination is prohibited—i.e., race, sex, age, and disability.” Rumble.
2015 WL 1197415, at*
REASONS FOR GRANTING THE WRIT
1. PETITIONER HAS NOT HAD A REAL JUDGE IN ALL OF THE STATE AND
FEDERAL COURTS NOR CAN THEY DISPROVE LOGICALLY THAT A CHILD IS
INFALLIBLY RELATED TO ITS BIOLOGICAL MOTHER.
Petitioner in light of the fraudulent concealment and judicial misconduct by Judges
McCormack, Steinman, Scheinkman, Balkin, Dillon, Kuntz and Katzmann where the judges
were acting as lawyers for the defendants NOT fair and impartial Judges and those judges have
agreed that a child or children (medical malpractice assault, medical malpractice patient dumping
and medical malpractice battery) are infallibly unrelated to their biological mother (medical
malpractice superset) WHICH IS WRONG and therefore Petitioner has not had a real judge in
this case both state and federal and there isn’t any option but finding the defendants guilty since a
child or children (medical malpractice assault, medical malpractice patient dumping and medical
malpractice battery) are infallibly RELATED to their biological mother (medical malpractice
superset).
Petitioner had repeatedly given the Defendants time to comply with the Subpoena Duces
21

Tecum of the Petitioner when VBP&P Law Firm took over as the defendants counsel, and
instead of complying with the legal Subpoena Duces Tecum, Attorney Covitt deliberately
dragged on from October 2016 to December 16, 2016 where with the support of Judge
McCormack/Attorney Roth, who were unprofessionally biased against Petitioner ever since the
preliminary conference on October 11, 2016 where Attorney Roth openly declared his
unprofessional bias of the Petitioner as a pro se litigant, saying to entire court and had continued
to repeat in every Compliance Conference afterwards (February 17, 2017, March 30, 2017, May
25, 2017 and August 31, 2017) that Petitioner “will not win this medical malpractice case, hire a
lawyer”, delivered an illegal motion to quash the Subpoena Duces Tecum of the Petitioner . As it
was previously infallibly proven before: The only way which the subpoena duces tecum of the
Petitioner can be quashed is if a child is infallibly unrelated to its biological mother which is an
impossibility (Appendix H at H-2 ). So therefore the Subpoena Duces Tecum of the Petitioner
cannot be quashed and the defendants motion to quash should have been denied if Judge
McCormack/Attorney Roth were not colluding with/in biased unfair collaboration with Attorney
Covitt/defendants against Petitioner to willfully sabotage Petitioner’s Medical Malpractice case ,
because the decision of Judge McCormack/Attorney Roth refused to recognize that a child
(medical malpractice assault subset as well as medical malpractice patient dumping out into the
cold to die subset) is infallibly related to its biological mother (medical malpractice super set),
which leaves the only right decision to be granting the Subpoena Duces Tecum of the Petitioner,
where the items requested in the Subpoena will prove the defendants are guilty of criminal
medical malpractice and earned them a guilty verdict.
The only way which the subpoena duces tecum of the Petitioner can be quashed is if a
22

child (medical malpractice assault subset and medical malpractice patient dumping out into the
cold to die subset) is infallibly unrelated to its biological mother (medical malpractice super set)
which is an impossibility. Instead Judges McCormack/Attorney Roth along with Steinman,
Scheinkman, Balkin, Dillon, Kuntz and Katzmann could not challenge the Infallibly of a child
(medical malpractice assault subset and medical malpractice patient dumping out into the cold to
die subset) being infallibly related to their biological mother (medical malpractice super set), and
conveniently chose to ignore it which clearly has been the constant pattern in this case so far.
2. RES JUDICATA AND COLLATERAL ESTOPPEL DOES NOT APPLY TO THE
PETITIONER AS PETITIONER WAS DENIED A FULL AND FAIR OPPORTUNITY
TO LITIGATE AS WELL AS THE STATE AND FEDERAL JUDGE ACTING AS
LAWYERS FOR THE DEFENDANTS..
The district court decision by Judge Kuntz seriously erred in saying that Res Judicata and
Collateral estoppel barred this case from being heard in the federal court (Appendix B). Res
Judicata as defined by google is “a matter that has been adjudicated by a competent court and
may not be pursued further by the same parties” (Appendix M). Petitioner in his motion for
Judge McCormack recusal said the following (Appendix J at J-6):
“It is glaringly obviously after the August 31,2017 Compliance conference that
Judge McCormack/Attorney Roth must excuse/recuse themselves from this medical
malpractice case. The Judge/Attorney have told the Plaintiff that medical
malpractice assault as well as medical malpractice patient dumping out into the cold
to die are not medical malpractices. A judge who doesn't know or has refused to
recognize that medical malpractice assault as well as medical malpractice patient
dumping are not just medical malpractices but the worst medical malpractices is not
capable (OR COMPETENT) or qualified to judge or preside over a medical
malpractice case. Judge McCormack/Attorney Roth who have also stated that
medical malpractice assault as well as medical malpractice patient dumping which
are the worst medical malpractices have no connection to medical malpractice have
demonstrated that Judge McCormack/Attorney Roth have no capability (OR
COMPETENCE) or will/intentions to judge this medical malpractice case and by
their collaboration with the defendants to deny discovery of evidence of the worst
23

medical malpractices, they have shown they have no will/intention to allow Plaintiff
to pick up any discovery for any part of the medical malpractice case (which Judge
McCormack/Attorney Roth through denying the Subpoena Duces Tecum of the
(Petitioner) which sought videos of and identities of witnesses to medical
malpractice assault as well as medical malpractice patient dumping, the worst
medical malpractices and the last 3 compliance conferences allowing and condoning
the defendants to blatantly refuse complying with any of the Plaintiffs discovery
request like the Plaintiff Combined Demands in the last 3 compliance
conferences)this constitutes a blatant obstruction of justice.
These points above, combined with openly admitting an unprofessional bias against
Plaintiff in the court, Judge McCormack/Attorney Roth have demonstrated no
capability or will/intention to judge this medical malpractice case and must excuse
himself/themselves immediately.”
Judge McCormack AGREED with the Petitioner when he granted the motion, which
proved that Judge McCormack, who before becoming a judge was in fact supposed to be a
medical malpractice attorney for several years, was NOT COMPETENT and the court of Judge
McCormack was not competent and were lawyers for the defendants NOT fair and impartial
judges and by them admitting in the recusal that Judge McCormack/Attorney Roth were acting as
lawyers for the defendant NOT as fair and impartial judges in this case, there was NO
adjudication by a competent court and thus proved there was NO res judicata in Petitioner’s case
at all. Petitioner in the state court where both Judge McCormack who recused himself and Judge
Steinman who had a conflict of interest in that his daughter was employed by the defendants as
well as comments from the public like therobingroom (Appendix K at K-l to K-3) such as:
“Justice Steinman issued a number of decisions that the Nassau County Bar shared
with me after I personally witnessed that he is detached from realty. is self serving and
financially rewards his “so-called” friends.fCourt Staff dated 1/22/2017 6:38:41 PM) ”
“Atrocious and illesal conduct, usins his sovernment position to abuse people for
political sain and his ownpocketbook. (12/16/201610:40:04 PM)”
“This Judge (Steinman) removed an attorney from the Courtroom, by force of a Court
Officer for 10 minutes on Ausust 12. 2016. without her property for OBJECTING on
24

the basis of relevance. Allowed others to view her cellphone, legal documents and
property (Litigant 12/13/2016 3:27:25 PM)”
“This person (Judge Steinman) is hiehlv unstable. Takes personally basic matters and
lashes out at lawyers before him for no reason.fCourt Staff8/25/2016 8:46:03 PM)”
“Justice Leonard Steinman should be criminally investigated. (7/12/2016 9:15:07
PM)”
“This is what we set when we vote on party lines and we know nothins about the
person. This judge’s tJudse Steinman) knowledge is minimal, with shallow decision,
and does not know minimal procedural requirements. Stay away if you can. (Litigant
6/29/2016 5:41:03 PM) ”
proves Judges McCormack and Steinman were in fact lawyers for the defendants NOT fair
and impartial judges who deliberately denied any res judicata ie there was no adjudication by a
competent court. Hence there was and still hasn’t been any res judicata in the Petitioner’s case.
Also the Collateral estoppel bar is inapplicable when the claimant did not
have a "full and fair opportunity to litigate" the Issue decided by the state court, Allen v.
McCurrv. 449 U.S at 101, as the Petitioner didn’t not have a full and fair opportunity to litigate
the matter in the state court under Judge McCormick who recused himself due to his acting as a
lawyer for the defendants NOT as a fair and impartial judge and Judge Steinman’s clear conflict
of interest where his daughter is employed by the defendants and the comments on his corruption
and judicial misconduct on therobingroom. Thus, a claimant can file a federal suit to challenge
the adequacy of state procedures. However Judge Kuntz and later Judge Katzmann in the federal
court have also demonstrated clearly a conflict of interest where Judge Kuntz, who knew his wife
is affiliated with Northwell Health (North Shore Univ Hospital which Petitioner’s lawsuit was
against) deliberately and severely prejudiced Petitioner’s case and Kuntz willfully and wantonly
chose to preside over Petitioner’s case to be a HATCHETMAN using his office/position to
25

benefit and further the interest of Northwell Health by fraudulently dismissing/killing Petitioner’s
case which infallibly proved them to be guilty of medical malpractice and also to further his own
personal and financial interests like making sure his wife’s job and career would be protected,
since if Judge Kuntz was a fair and impartial Judge and found the defendant hospitals guilty of
Medical Malpractice it’s fair to assume that Northwell Health would have retaliated against his
wife and/or lost her job. Judge Katzmann’s irrational and viciously stubborn refusal to grant
IFP/poor person relief to Petitioner when Petitioner has infallibly proven that he qualifies for it
and even Judge Kuntz in the District Court granted it (“Petitioner’s request to proceed without
the prepayment of fees is granted...” Appendix B at B-l), can only make sense in light of the new
evidence that Petitioner had recently discovery about Judge Kuntz’s conflict of interest and Judge
Katzmann protecting/refusing to punish or go against corrupt judges and instead attacks the
public members who witnessed the corruption like the public witnessed and recognized Judge
Katzmann did on therobingroom (Appendix G at G-2). Thus Petitioner awaits this United States
Supreme Court for justice and to find Defendants guilty of medical malpractice.
3. THE PARALLELS BETWEEN POLLARD v.UNITED STATES. THE TUSKEGEE
EXPERIMENT AND PETITIONER’S CASE HAS BEEN 100% ESTABLISHED AND
THEREFORE DEMANDS THE DEFENDANTS BE FOUND GUILTY.

Petitioner’s medical malpractice case has been extremely and viciously trivialized by the
State and Federal Court Judges when it is in the class of the worst and most vicious and
malicious medical malpractice cases completely similar to the Tuskegee Experiment, Pollard v
United States and the State and Federal Court Judges are refusing to even see this as a medical
malpractice, proves the State and Federal Courts are obviously ignoring Petitioner and refusing to

26

hear the Petitioner’s case at all.
In Pollard v. United States. 384 F. Supp. 304 - Dist. Court, MD Alabama 1974, the
Tuskegee Syphilis Experiment (overseen by Dr. Thomas Parran Jr., the Health Commissioner of
New York State during the 1930’s and the 6th Surgeon General of the United States, who also
had overseen the Guatemala Syphilis experiment, infecting people with syphilis refusing to treat
these people for syphilis and leaving them to die from Syphilis from 1948 to 1953), is a classic
example of a fraudulent concealment medical malpractice case where patients infected with
syphilis were deliberately not informed by their doctors of having syphilis, instead the doctors
lied to the patients and claimed they had “Bad Blood”, and those same doctors deliberately
denied these patients penicillin for treatment of the illness, instead knowingly giving them fake
treatments and test which the doctors knew these “tests” and “treatments” would not cure/do
anything for the syphilis. These patients were never informed by their doctors of having syphilis
despite their doctors knowing the patients had syphilis and the patients were for 40 years
(1932-1972) without any treatment for the syphilis and left by those doctors to die.
THE TUSKEGEE SYPHILIS EXPERIMENT SYPHILIS IS EQUIVALENT
WITH THE GOUT WITHIN THE PETITIONER’S CASE AND THE “BAD BLOOD” IN
TUSKEGEE SYPHILIS EXPERIMENT IS EQUIVALENT WITH THE “FRAUDULENT
MYSTERIOUS ILLNESS/DISEASE” IN THE PETITIONER’S CASE. THE
HOSPITAL /DOCTORS IN THE TUSKEGEE SYPHILIS EXPERIMENT KNEW
ABOUT PATIENTS HAVING SYPHILIS JUST LIKE HUNTINGTON HOSPITAL AND
NORTH SHORE UNIV. HOSPITAL/DOCTORS KNEW ABOUT PETITIONER’S GOUT.
HOSPITAL/DOCTORS IN THE TUSKEGEE SYPHILIS EXPERIMENT REFUSED TO
27

TREAT SYPHILIS OF THE PATIENTS IN THE TUSKEGEE SYPHILIS
EXPERIMENT, JUST LIKE HUNTINGTON HOSPITAL AND NORTH SHORE UNIV.
HOSPITAL/DOCTORS REFUSED TO TREAT PETITIONER’S GOUT. HOSPITAL
/DOCTORS IN THE TUSKEGEE SYPHILIS EXPERIMENT ALLOWED THE PATIENTS OF
TUSKEGEE SYPHILIS EXPERIMENT TO SUFFER UNNECESSARILY AND TO DIE
FROM SYPHILIS JUST LIKE HUNTINGTON HOSPITAL AND NORTH SHORE UNIV.
HOSPITAL/DOCTORS DELIBERATELY ALLOWED THE PETITIONER TO SUFFER
UNNECESSARILY FROM GOUT (HUNTINGTON/NORTH SHORE DID INDIVIDUALLY
AND/OR COLLECTIVELY THE FOLLOWING: MEDICAL MALPRACTICE ASSAULT,
MEDICAL MALPRACTICE PATIENT DUMPING OUT INTO THE COLD TO DIE, AS
WELL AS MEDICAL MALPRACTICE BATTERY OF THE PETITIONER). THE
PETITIONER AND HIS FAMILY PRAISE GOD FOR PROTECTING THE PETITIONER’S
LIFE MIRACULOUSLY. THEREFORE SINCE ALL OF THE PARALLELS HAS BEEN
ESTABLISHED BETWEEN THE TUSKEGEE SYPHILIS CASE AND THE PETITIONER’S
GOUT CASE WHERE THE HOSPITALS/DEFENDANTS IN THE TUSKEGEE SYPHILIS
EXPERIMENT WERE FOUND GUILTY OF MEDICAL MALPRACTICE THE PARALLEL
BETWEEN THESE TWO CASES NOW COMPELS A GUILTY VERDICT AGAINST
HUNTINGTON HOSPITAL/NORTH SHORE UNIV. HOSPITAL ON BEHALF OF THE
PETITIONER.
Defendants, Huntington Hospital and North Shore Univ. Hospital doctors/nurses/medical
staff willfully, wantonly, knowingly and fraudulently lied outright repeatedly as well as
deliberately to Petitioner. As Petitioner’s audio recording of the Medical Malpractice
28

Battery/Attempted Murder infallibly proved, there was NO informed consent gotten from the
Petitioner at all, NO communication of diagnosis to the Petitioner, NO communications at all to
Petitioner about anything pertaining to his treatment, and NO accurate reporting of test results or
procedures at all, instead Petitioner was deliberately and maliciously ambushed, lied to and
attacked constantly by the hospital doctors and staff who were all fraudulently concealing the
gout which the Petitioner had, on the basis of the defendants doctors very fraudulently declaring
that a diagnosis of high intelligence as a “psychiatric illness” which is equivalent with diagnosing
the ALMIGHTY GOD as being “PSYCHIATRICALLY ILL” since GOD has the totality of all
Intelligence, which is impossible, and Judge Steinman used that infallibly wrong conclusion as
the one of the bases of dismissing the Petitioner’s medical malpractice case, WHICH CLEARLY
DEFIES LOGIC, to fraudulently conceal Petitioner’s gout.
ANY DOCTOR/MEDICAL EXPERT OR JUDGE/COURT WHO CLAIMS THAT A
HOSPITAL HAS NOT COMMITTED MEDICAL MALPRACTICE AFTER THESE
SEVERELY EGREGIOUS, FRAUDULENTLY GROSS NEGLIGENCES AND MALICIOUS,
WORST MEDICAL MALPRACTICES (MEDICAL MALPRACTICE ASSAULT, MEDICAL
MALPRACTICE PATIENT DUMPING OUT INTO THE COLD TO DIE, MEDICAL
MALPRACTICE BATTERY IN THE OR AS EVIDENCED BY THE PETITIONER’S AUDIO
RECORDINGS APPENDIX I OF THE COMPACT DISC) MUST SURRENDER THEIR
MEDICAL PRACTICE LICENSE/LICENSE TO PRACTICE LAW AND
RETIRE/DISQUALIFY THEMSELVES FROM THIS CASE.
THIS IS THE GOOD CAUSE FOR THE VACATING OF THE DISMISSAL AND
GRANTING THE WRIT, SINCE THE COURT OF APPEALS JUDGES REFUSES TO
29

VACATE AND REINSTATE THE APPEAL, THEY ARE ONLY PROVING THE
PETITIONER RIGHT ABOUT THEM BEING LAWYERS FOR THE DEFENDANTS
INSTEAD OF BEING FAIR AND IMPARTIAL JUDGES BECAUSE CRIMES LIKE THESE
ONES COMMITTED BY THE DEFENDANTS ARE SUPPOSED TO BE PUNISHED BY
THE COURTS FOR THE BENEFICIAL GOOD OF THE PUBLIC, NOT FRAUDULENTLY
CONCEALED/COVERED UP/KILLED THROUGH A VICIOUSLY FRAUDULENT
DISMISSAL WHICH IS A CLEAR SIGN THE DISTRICT COURT AND COURT OF
APPEALS ARE TELLING THE DEFENDANTS THEY CAN COMMIT ANY VICIOUS AND
EGREGIOUS CRIME ON MEMBERS OF THE PUBLIC AND BE AUTOMATICALLY
PROTECTED IN THE COURTS PARTICULARLY IN THE COURT OF APPEALS.
GOD ALMIGHTY’S GRAND UNIFIED THEOREM GAGUT Gij j=0 has been
recognized as the ultimate investigation tools as seen by Law and Order, a dramatization of
certain parts of the Law and Order system (Appendix L). Since petitioner has infallibly proved
mathematically in the case that a child is infallibly related to its biological mother we are
convinced that a real judge (not a lawyer of the defendants) would find the defendants guilty of
criminal medical malpractice..

30

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

(m
Date:

